<html>
<title> - THE FUTURE OF THE ABM TREATY</title>
<body><pre>[Senate Hearing 106-311]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-311


 
                      THE FUTURE OF THE ABM TREATY

=======================================================================


                                HEARING

                               before the

      INTERNATIONAL SECURITY, PROLIFERATION, AND FEDERAL SERVICES 
                              SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION


                               __________

                             APRIL 28, 1999

                               __________

      Printed for the use of the Committee on Governmental Affairs

                               <snowflake>

                      U.S. GOVERNMENT PRINTING OFFICE
 59-589 cc                   WASHINGTON : 2000
_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                  Darla D. Cassell, Administrive Clerk

                                 ------                                

      INTERNATIONAL SECURITY, PROLIFERATION, AND FEDERAL SERVICES 
                              SUBCOMMITTEE

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  DANIEL K. AKAKA, Hawaii
SUSAN M. COLLINS, Maine              CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
JUDD GREGG, New Hampshire            JOHN EDWARDS, North Carolina
                   Mitchel B. Kugler, Staff Director
              Richard J. Kessler, Minority Staff Director
                      Julie A. Sander, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Cochran..............................................     1
    Senator Akaka................................................     2
    Senator Levin................................................    26

                               WITNESSES
                       Wednesday, April 28, 1999

Jeane J. Kirkpatrick, Levy Professor of Government, Georgetown 
  University; Senior Fellow, American Enterprise Institute, and 
  former U.S. Ambassador to the United Nations...................     3
John B. Rhinelander, Senior Counsel, Shaw Pittman, and Former 
  Legal Adviser, SALT I Delegation...............................    13
Robert G. Joseph, Director, Center for Counter-Proliferation 
  Research, National Defense University, and former U.S. 
  Commissioner, Standing Consultative Commission.................    17

                     Alphabetical List of Witnesses

Joseph, Robert G.:
    Testimony....................................................    17
    Prepared statement...........................................    61
Kirkpatrick, Jeane J.:
    Testimony....................................................     3
    Prepared statement...........................................    39
Rhinelander, John B.:
    Testimony....................................................    13
    Prepared statement...........................................    52


                      THE FUTURE OF THE ABM TREATY

                              ----------                              


                       WEDNESDAY, APRIL 28, 1999


                                     U.S. Senate,  
                Subcommittee on International Security,    
                     Proliferation, and Federal Services,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room 342, Senate Dirksen Building, Hon. Thad Cochran (Chairman 
of the Subcommittee) presiding.
    Present: Senators Cochran, Specter, Levin, and Akaka.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. The Subcommittee will please come to 
order.
    I first want to welcome everyone to today's hearing on the 
future of the Anti-Ballistic Missile Treaty. Last month, the 
Senate and House of Representatives passed legislation making 
it the stated policy of the United States to deploy a national 
missile defense system. With the passage of these bills, we 
have overcome the policy roadblock for national missile defense 
deployment.
    But there are other questions that must be answered. One of 
the most obvious is the compatibility of the Anti-Ballistic 
Missile Treaty with national missile defense. Called by some 
the cornerstone of strategic stability, and regarded by others 
as an obsolete relic of the Cold War, the ABM treaty represents 
a commitment by the United States not to deploy a defense of 
its territory against long-range ballistic missiles.
    Because the recently passed legislation calls for 
deployment of just such a system, there appears to be a clear 
conflict between the terms of the treaty and our new commitment 
to defend ourselves against ballistic missile attack. Today we 
will consider whether this 27-year-old treaty is the impediment 
it appears to be, and if so, what should be done about it.
    To help us understand the issues surrounding the treaty 
ramifications of our new policy, we have invited some very 
distinguished witnesses to this hearing. The first witness 
today will be Dr. Jeane Kirkpatrick, who is the Levy Professor 
of Government at Georgetown University, a Senior Fellow at the 
American Enterprise Institute and former U.S. Ambassador to the 
United Nations.
    On our second panel are John Rhinelander, Senior Counsel 
with the law firm of Shaw Pittman here in Washington, and 
former legal advisor to the SALT I delegation; and Ambassador 
Robert Joseph, who is Director of the Center for Counter-
Proliferation Research at the National Defense University, and 
former U.S. Commissioner to the ABM treaty's Standing 
Consultative Commission.
    Before proceeding to hear from Dr. Kirkpatrick, I want to 
yield at this time for any comments or statements from my 
distinguished friend from Hawaii, the Ranking Democratic Member 
of this Subcommittee, Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    I will only tell you that I am delighted to be serving with 
you on this Subcommittee and look forward to these hearings and 
others that will be coming in the future. I want to thank you 
very much for scheduling today's hearing on this important 
topic. Both Democrats and Republicans are united in concern 
that the United States pursue every possible option for 
developing an adequate defense against missile attack from 
rogue states.
    As an early sponsor of S. 257, the National Missile Defense 
Act of 1999, I hope that we will make progress soon on 
effective programs. At the same time, I continue to believe 
that an essential element of a good defense is maintaining a 
robust arms control regime. The pattern of treaty obligations 
which we developed with the Russians in the Cold War was 
extremely effective at preventing nuclear war. In the post Cold 
War period, I think we have to be careful about changing the 
system of mutual obligations and restraining weapons 
development that has helped prevent mutual destruction.
    The administration's position has been that it might deploy 
a national missile defense, NMD, before the year 2005, if 
testing of a system goes flawlessly, according to Defense 
Secretary Cohen. The administration has also indicated that it 
would consider specific amendments to the ABM treaty once an 
NMD architecture has been decided upon. These are two important 
distinctions.
    Mr. Chairman, I would just hate to eliminate unilaterally 
the 1972 Anti-Ballistic Missile Treaty, or ABM, which has made 
an important contribution to stable military relations between 
Russia and the United States until we can be certain that 
first, the ABM treaty no longer serves a useful purpose, and 
second, we have an effective alternative defense system in 
place.
    Again, I thank you, Mr. Chairman, for scheduling this 
important hearing. I appreciate the effort your staff has taken 
to work with my Subcommittee staff and look forward to our 
continued cooperation. I, too, want to welcome our panels 
today. We have some excellent witnesses, and we join you in 
welcoming them.
    Thank you very much.
    Senator Cochran. Thank you, Senator.
    I appreciate your kind remarks. I am very pleased that this 
is our first hearing as a team on this Subcommittee. I look 
forward to working closely with you and the other Members of 
the Subcommittee as we explore the subjects under the 
jurisdiction that's been assigned to us.
    Dr. Kirkpatrick is very well qualified, in my opinion, to 
give us her impressions of the issues that surround national 
missile defense in relationship with the Anti-Ballistic Missile 
Treaty. Again, we welcome you very sincerely, and thank you for 
making time available to testify before this Subcommittee 
today.
    We appreciate very much the benefit of your statement, 
which we will make a part of the record in full. We encourage 
you to make any comments you think would be helpful to our 
understanding of these issues. You may proceed.

    STATEMENT OF JEANE J. KIRKPATRICK,\1\ LEVY PROFESSOR OF 
  GOVERNMENT, GEORGETOWN UNIVERSITY; SENIOR FELLOW, AMERICAN 
ENTERPRISE INSTITUTE, AND FORMER U.S. AMBASSADOR TO THE UNITED 
                            NATIONS

    Ambassador Kirkpatrick. Thank you very much, Senator 
Cochran, for inviting me to testify on this vitally important 
issue, which we know directly affects the security and well-
being of the United States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ambassador Kirkpatrick appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    Mr. Chairman, as you know, the number of non-democratic, 
non-constitutional states which either have or soon will have 
weapons of mass destruction and intercontinental ballistic 
missiles capable of delivering nuclear, chemical and biological 
payloads on American cities has grown and is growing. States 
such as North Korea, Iran, Iraq, and yes, China, have developed 
these capacities with a speed that exceeded the expectations 
and predictions of skilled prognosticators.
    So that what George Washington called our blessed location, 
between two vast oceans, can no longer protect America and 
Americans from weapons of mass destruction available to the 
states of violent predilection and intentions. We are wholly, 
utterly vulnerable to incoming missiles.
    I know, Mr. Chairman, that you are as aware as I of this 
Nation's growing vulnerability to blackmail and destruction. I 
congratulate you for the leadership that you and Senator Inouye 
have offered in the effort to develop an effective defense that 
can end this vulnerability. I also know there remains powerful 
resistance in this administration against serious action to 
develop an effective defense against incoming missiles. And 
there are still too many in the administration and in Congress 
who are more concerned with preserving the ABM treaty than with 
preserving American lives. I wish this were not true.
    I would like to state briefly reasons I believe the effort 
to preserve the ABM treaty is mistaken and dangerous. I begin 
by considering the argument that has been made for many years 
that the ABM treaty is a cornerstone of strategic stability in 
the U.S. relationship with Russia, or as is now claimed, in the 
relationship with China and Russia, or the cornerstone of 
strategic stability in the world.
    But Mr. Chairman, there is no strategic stability in the 
world. The ABM treaty has no more been able to stabilize 
strategic relations among nations than the Non-Proliferation 
Treaty has been able to prevent the spread of nuclear 
technology, or the missile control regime has been able to 
control the number of governments capable of producing long-
range ballistic missiles. These are hard facts which need to be 
faced.
    Russia, of course, retains its huge arsenal of weapons of 
mass destruction and ICBMs. Everyone concerned with these 
issues knows now that a number of other countries also possess 
these capabilities, and that the reach and the accuracy of 
China's missiles in particular have increased and are 
increasing still. China's weapons and delivery systems reflect 
or soon will reflect, we also know, the most advanced U.S. 
technology. So the United States need to be able to defend 
ourselves grows even more rapidly than we had anticipated.
    We also know that Russia's political and economic systems 
are unstable. We regret this and where our government can help, 
it works with constructive persons in the government of Russia 
and Russian society to try to help them to deal with these 
problems. But it is a fact that Russia confronts various types 
of instability, and confronts two national elections in the 
next year, which we need also to be aware of.
    At the same time that Russia confronts growing instability, 
the People's Republic of China has become more assertive, and 
sometimes even threatening in its dealings with Taiwan, Japan, 
the Philippines and from time to time, the United States. That 
makes it especially significant that China has joined Russia in 
declaring it an egregious offense for the United States to seek 
an effective defense against deadly weapons through policies 
which may conflict with the ABM treaty.
    The recent warnings in the Russian-Chinese declaration 
reflect, I believe, the spirit of the French jingle that says, 
``This is a very bad animal, when it is attacked, it defends 
itself.'' Because all that is at issue here and has ever been 
at issue in the ABM treaty is our capacity to defend ourselves.
    Actually, while China speaks for solidarity with Russia's 
efforts to preserve the ABM treaty and strategic stability, so-
called, in the world, its own policies promote the spread of 
nuclear and missile technology to Pakistan, Iran, North Korea 
and destabilize strategic stability. China's policies 
destabilize strategic stability. They also, destabilize 
strategic stability by their threatening and semi-threatening 
policies toward Japan, Taiwan, the Philippines, and the United 
States.
    That was observed and clearly stated in the Rumsfeld 
Commission report, with which I am certain you are fully 
familiar. And which also makes the point that in addition to 
the ballistic missile threats posed by Russia and the People's 
Republic of China, such states as Iran, Iraq and North Korea 
will probably be able to inflict major damage on the United 
States within about 5 years of a decision to acquire such a 
capability. And the Rumsfeld Commission report further notes, 
the United States may not be aware that such a decision had 
been made even if U.S. intelligence agencies, such as the CIA, 
are working at full effort to discern such effort.
    What makes the recent spread of nuclear and missile 
technology especially serious is that it puts weapons of mass 
destruction in the hands of repressive one-party states--the 
very governments that are most likely to use such weapons 
aggressively. This is the issue.
    It's widely understood by political scientists that 
democratic nations do not start wars, in part because democracy 
gives power to the people who fight the wars, and they're not 
enthusiastic about it, but mainly because democracy breeds 
habits of restraint in the use of power, restraint in dealing 
with differences and in tolerating opposition. Some consider 
these attributes to be irrelevant to strategic matters, but 
they are very relevant to strategic matters because democratic 
governments got accustomed to submitting their power to law and 
consent. The unwillingness of rulers to share power or to 
tolerate criticism in internal affairs warns us that they may 
not be willing to share power or negotiate differences in 
external affairs.
    The uninhibited use of force against dissidents, for 
example, warns us that a government may use force to impose its 
will in external relations as well. The fate of Tibet is not 
irrelevant to the fate of Hong Kong or Taiwan, or any other 
distinct community that becomes an object of China's ambition 
or is absorbed by it.
    For all these reasons, the spread of weapons of mass 
destruction, I believe that developing and deploying an 
effective defense against incoming missiles is the most 
important security problem faced by the United States. I 
further believe that the ABM treaty is the most important 
obstacle to an adequate defense. I believe therefore that the 
United States should give notice of an intention to withdraw 
from the treaty.
    As we all know, the ABM treaty was conceived and ratified 
as a bilateral treaty during a time that only the United States 
and the Soviet Union had the capacity to reach the other's 
territory with ballistic missiles. Whether the treaty 
contributed to America's security even then, is a question for 
historians with which we need not be concerned today. The 
question that concerns us now is whether the ABM treaty 
contributes to the security of the United States today, in a 
context of proliferating weapons of mass destruction and 
missiles.
    I believe the answer is, ``No, the Treaty does not 
contribute to our security today.'' I note moreover that when 
only one country had the capacity to deliver weapons of mass 
destruction the value of the Treaty was diminished because the 
Soviets both violated the Treaty and lied about it.
    I note also that supporters of the ABM treaty were 
uninterested in pursuing the question of Soviet violations 
although the Reagan Administration, in which I served, held the 
view, that there was a good deal of evidence suggesting 
violations were taking place.
    It was not until the end of the Cold War, when the wall 
came down, that Soviet Foreign Minister Edouard Schevardnadze 
confessed that there had indeed been major Soviet treaty 
violations at Krasnoyarsk.
    Today the ABM Treaty hinders the development of an 
effective national missile defense, and handicaps the 
development of affecting theater missile defenses. For these 
reasons, I believe we should give notice of our intention to 
withdraw from the treaty in order to protect our most vital 
national interests which includes our survival.
    I want to address the issue of whether or not American 
withdrawal from the ABM treaty would damage American security 
by diminishing the likelihood of Russia ratifying the START II 
treaty, which would eliminate several thousand Russian ICBMs. 
But I desire to make two points.
    One is that the Duma has had 6 years to ratify START II, 
during which time the United States has meticulously honored 
its Treaty obligations. And the Duma has not ratified START II, 
because of the vehement opposition, of the Communist party in 
the Duma, and the Zhirinovsky party as well. Today the 
Communist party and the Zhirinovsky party constitute a solid 
majority of the members of that legislative body.
    So the prospects of ratification of START II by the Duma 
are very slim. Moreover, I would also emphasize that even if 
the Duma were to ratify, which is extremely unlikely, we would 
be protected only against the several thousand ICBMs which 
Russia destroyed. It would leave us still utterly defenseless 
against other Russian ICBMs and defenseless against Chinese and 
North Korean and all other weapons of mass destruction. START 
II could not provide us an adequate defense.
    Concerning the claim that the ABM treaty has been the 
cornerstone of strategic stability, it is useful to recall that 
the purpose of a defense is to defend. Stability is better than 
instability, but it's not an ultimate value. And it was not the 
search for stability that led us to conceive and ratify the ABM 
treaty. And it is certainly not the search for stability that 
concerns Americans today. It is the search for an adequate 
defense. Defense is more important to us than stability.
    It is the proliferation of missiles creates strategic 
instability that characterizes the world today. The ABM treaty 
and its continuation serves the interests of both Russia and 
China, today. It serves the interest of Russia, because it 
preserves American vulnerability and the full value of their 
ICBMs.
    And the ABM treaty serves China's long-term ambitions to 
become the dominant power in East Asia, because in order to do 
this, they must neutralize U.S. power in the region. It is 
America's deterrent capacity that has maintained peace in East 
Asia and protected that area from a nuclear missile race.
    I have been disturbed by the predilection China's military 
leaders have shown in recent years for using the threat of 
force to blackmail others. We all remember when China's 
Lieutenant General Xiong Guang Kai threatened the United States 
at the time of the Taiwan Straits crisis, stating that he 
didn't think they had to worry much about Americans, because if 
Americans had to choose between having bombs fall on Los 
Angeles and Taipei, it would be no choice.
    That's the closest thing to an outright threat to American 
cities, I think, that I have ever heard, more specific than 
Khruschev's threat, ``We will bury you,'' became more precise.
    I have also been shocked, as I'm sure others here have 
been, by China's theft of American technology through 
espionage.
    I believe, that where Asia is concerned, it is now the ABM 
Treaty that can keep the peace and maintain stability. It is 
America's continued capacity to deter by its own strength and 
its policies.
    Mr. Chairman, we all know that the threat to the United 
States security and interest is real and present. We know 
Secretary Cohen stated recently, ``We are affirming that there 
is a threat and that the threat is growing. We expect it will 
pose a danger not only to our troops overseas, but also to 
Americans here at home.'' And General Lyles, who added to that, 
``The threat is here and now.'' Those clear statements from the 
Pentagon and clear acknowledgement of a developing threat and a 
developing need for an adequate missile defense system I think 
have clarified the situation.
    Let me just say that I am not a lawyer, I am a political 
scientist. I have, however, read the reports and analyses both 
of the Heritage Foundation report by David Rivkin, Lee Casey 
and Darin Bartram. As you know, they demonstrate that the ABM 
treaty collapsed with the Soviet Union. The Center for Security 
Studies Feith and Meron analysis focuses on the question: Did 
the ABM treaty of 1972 remain in force after the USSR ceased to 
exist in December, 1991? Their answer is no, it did not remain 
in force, because both international and domestic law make 
clear that it could not remain in force. It would require such 
alteration that it cannot be regarded as having remained in 
force.
    Their second question is, did it become a treaty between 
the United States and the Russian Federation, as the 
administration has suggested? Their answer to that is, no, it 
did not because it could not, because the Russian Federation is 
not simply a continuation of the Soviet Union. We all know 
that.
    The Soviet Union not only dissolved itself, but it also, 
under President Yeltsin's leadership, permitted those CIS 
states who were component states of the Soviet Union to declare 
their independence and establish their own governments. That 
does not mean, either, that the Ukraine and Kazakhstan and 
Belarus and the Russian Federation can be treated as sort of 
roughly the equivalent of the Soviet Union for legal purposes.
    It doesn't work that way, because treaties are 
painstakingly negotiated between specific states who then 
assume those obligations in the Treaty. These are not the 
states with whom the U.S. negotiated, this is not the treaty 
that the Senate ratified. I believe that we need to face the 
fact that the ABM treaty has expired and that restoring it 
would be an obstacle to the development and deployment of an 
effective and adequate missile defense for Americans, and that 
it is now time to unleash the creativity of American scientists 
and technicians and allow them to take on fully with all their 
creativity the task of completing the development of an 
adequate missile defense system.
    The right of self defense is recognized in courts of law as 
justifying the use of force and from time to time in criminal 
law. It's also recognized in the U.N. Charter, in Article 51, 
where there is a reference to the ``inherent right to self 
defense.''
    It is not necessary, Mr. Chairman, and prudent people will 
not wait until they are attacked in order to provide an 
adequate defense. It is irresponsible for the U.S. Government 
to remain, to leave us defenseless until we actually confront 
an attack. I believe the U.S. Government has a solemn 
obligation to provide for the defense of America and that the 
next step in doing so, in fulfilling this obligation, would be 
to give notice of the American intention to withdraw from the 
ABM treaty.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you very much, Madam Ambassador. 
This is a very interesting and thought-provoking statement for 
us this afternoon.
    Let me ask a couple of questions. I just noticed a light 
went on and our buzzer system sounded, indicating a vote is 
occurring now, beginning on the Floor of the Senate. We're 
checking to see what that is, but within 15 minutes, we'll have 
to go record our votes. We will be taking a break to do that.
    But it seems to me that it is clear, as you point out, that 
the restraints that are imposed on our efforts to develop 
defenses against missile attack, whether we're talking about 
theater missiles or a national missile defense system, are very 
clear. We know that we're not doing things we would do, 
probably, if we weren't constrained by the ABM treaty 
otherwise, in the theater missile defense area. We know that 
we're testing in a limited way to guard against violating the 
treaty and to guard against violating an agreement that this 
administration has reached with Russia, this demarcation 
agreement that's been negotiated without the approval of the 
Senate. So that's a very real problem.
    I suppose we simply have to weigh one interest against the 
other, that is, the benefits of being free from obstacles to 
our efforts to develop and deploy theater and national missile 
defense systems with the potential harm to our relationship 
with Russia. As we try to assess that balance and make a policy 
judgment, we need to understand what the potential harm to our 
relationship with Russia would be.
    In that connection, let me ask the first question, which 
is, what would the Russian reaction be, in your view, to our 
announcement of an intention to withdraw from the ABM treaty? 
Would this reverse the successes of the de-escalation of 
strategic weapons development, destruction of nuclear weapons 
and changes in targeting of the Russian ICBMs? What do you 
think?
    Ambassador Kirkpatrick. Mr. Chairman, I believe we cannot 
ever be certain what the response of another government will be 
to a U.S. action. I think we could be clear in our own minds 
that the United States does not see the issues involving the 
ABM treaty as involving, as threatening to Russia. We are not 
proposing any sort of action that would enhance the threat to 
Russia. We're not proposing to attack Russia or to blackmail 
Russia.
    Moreover, I would remind the Chairman of the time that 
President Reagan first made his speech proposing the 
development of a national missile defense, which his opponents 
usually called Star Wars, and those of us who supported it 
called Strategic Defense Initiative. He actually announced 
simultaneously that if this seemed too upsetting, if it seemed 
upsetting to the Soviet Government, you would assure them that 
it had no intentions to damage them and could in fact enhance 
their security, and that he would himself propose to make 
available to the Soviet Union, you recall this, make available 
to the Soviet Union the benefits of the defense against 
ballistic missiles that would derive from our research and 
experience with the national missile defense system.
    I have no doubt at all that if we were to think creatively 
with the Russians, it should be possible to convince them that 
we in no sense intend to threaten them and that we would, in 
fact, be better able to protect not only ourselves, but any 
country in the world, if we had a space-based missile system, 
which is what, of course, President Reagan saw and which is 
what would give us the longest view.
    Senator Cochran. Thank you.
    Senator Akaka, before we have to go vote.
    Senator Akaka. Thank you very much. That means my questions 
will be limited.
    As I expressed in my statement, I am very concerned about 
what you think. My question to you would be, do you think our 
ABM treaty has a useful purpose yet, presently? And second, 
whether you know or feel that we have an alternative defense 
system that can take its place in case we decide to remove the 
ABM treaty?
    This is in light not only of the Russia which is now the 
past, but when we look at the present, and that is with our 
NATO countries, as well as Japan, the kind of agreement we 
should consider with them.
    Ambassador Kirkpatrick. Let me just say that I know that 
you know the first job of an American Senator or Congressman is 
representation of his own constituents, and protection of those 
constituents and their interests, as well as the Nation's. I 
think Hawaii obviously has a very special concern in these 
discussions because Hawaii is the State which is most readily 
threatened by the technology which exists today in China and 
North Korea.
    I think the threat and the danger constitute a clear and 
present danger. I do not see a comparable benefit either to the 
United States, especially to those people that are threatened 
directly by existing technology. But from the ABM treaty, 
that's a very good example. Because the ABM treaty at best 
provides some controls over the defenses that Russia, Belarus, 
Kazakhstan, or Ukraine may develop. We really don't have any 
interest in not having those countries not defend their own 
people, by the way.
    But the threat that exists from them, any threat from them, 
is not a threat to the people of Hawaii, I might say. The 
threat to the people of Hawaii that exists today comes from 
states that have never been signatories to the ABM treaty. The 
ABM treaty, we have to bear clearly in mind, is not a 
multilateral treaty. It's a bilateral treaty between the United 
States and the Soviet Union.
    I just don't see any benefit to the people of Hawaii 
derived from this.
    Senator Cochran. Senator, I hate to interrupt, but we'd 
probably better go vote. This is a motion to table the Kennedy 
Amendment.
    If you will excuse us, we'll be right back. The 
Subcommittee will stand in short recess.
    [Recess.]
    Senator Cochran. The Subcommittee will please come to 
order.
    It turned out that we had two votes, rather than one vote. 
That caused a little extra delay, and we apologize very much 
for that.
    Ambassador Kirkpatrick, you mentioned that there were new 
threats emerging that the ABM treaty was not designed to deal 
with--one is China. Our relationship with Russia is the only 
relationship that was contemplated when the Anti-Ballistic 
Missile Defense Treaty was entered into. What in your judgment 
would the effect be on other countries, if any, by our 
announcement that we were withdrawing from the ABM treaty? 
Would it cause a new level of tension between the United States 
and China? If so, should we consider that before making a 
decision to withdraw from ABM?
    Ambassador Kirkpatrick. I don't believe so. I believe that 
the United States has a fairly complex relationship with China, 
and that there are areas in which we have very constructive and 
useful relationships, trade is one of those. I always say trade 
in non-strategic goods. But cultural relations of various 
kinds, we have important relations with China.
    China does a good many things that we're unhappy with. And 
we rarely do anything that China is very unhappy with, except 
complain about some of the things that they do.
    I think this would make them unhappy. And I think it's a 
very important thing for us to do, just in fact to preserve 
some degree of strategic stability in the East Asian theater. 
But I don't think any of these specific issues in our 
relationship with China will threaten the whole relationship. I 
think there's always a lot of hype, over-dramatization of these 
questions.
    Senator Cochran. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I can't help but remember a statement you made, Ambassador, 
that there is no strategic stability in the world today, which 
is something that we really need to care and think about. So we 
have to look to see what we have on the books now that can 
possibly be part of trying to reach some strategic stability.
    In your view, Ambassador, from whom does the United States 
continue to facte the greatest missile threat? If it is not the 
Russians, how do you rank the Russian offensive missile threat?
    Ambassador Kirkpatrick. I rank it serious, that's how I 
rank it. I think it exists, I think it's real. Any threat 
consists of capability and intention. And the Russians have the 
capability. We hope they don't have the intention. The reason 
that the world has been more relaxed and comfortable in the 
years since the dissolution of the Soviet Union is just that, 
that we took it as signaling an end to the Russians' hostile 
intentions, not only Russia, but the other countries of the 
former Soviet Union.
    I believe that the Russia today does not have hostile 
intent toward us. But I do not think we can--the capability is 
so great and the level of instability in that country is 
sufficient that I think it should be a continual concern to us. 
That's what I think.
    I had the privilege of hearing the late former President 
Nixon on his return from Moscow giving a sort of last semi-
public statement that he gave before he was struck dumb, just 2 
days before his stroke. He was reporting--he had gone to Moscow 
for 3 weeks, and he was back and reported to President Clinton. 
He invited 30 or 40 foreign policy wonks in Washington, 
officials in former administrations like me and top journalists 
who had specialized in Soviet relations, to hear a report.
    He spoke for about 70 minutes, with great insight and 
clarity. He began and ended that statement with the comment 
that he very much hoped that his fellow Americans understood 
that Russia remained for us the most important country in the 
world, if for no other reason than they alone could destroy 
large parts of our country in the matter of an hour or so.
    I had a lot of respect for Mr. Nixon's foreign policy 
insights and clarity. That comment made a special impact on me. 
I think it's good advice. We should not forget it.
    Senator Akaka. I know we still think about the Russians, 
and we still worry about them. My question leads to looking for 
the best means of dealing with them. One of them could be, 
could it be through containment or elimination? So I come to 
this question, if Russia deployed a national missile defense 
system that could prevent the United States from retaliating 
with its missile forces and still retained its nuclear forces, 
would you think that would be good for U.S. security?
    Ambassador Kirkpatrick. I have trouble with the question. 
Because I can't conceive of the United States employing ICBMs 
aggressively against Russia. But generally, I would simply say 
that I do not believe that an effective defense is an 
aggressive act against anyone. I would feel that way about 
Russia as well. I would not feel that an effective defense 
against incoming missiles in Russia was an offensive act 
against the United States or a danger to us. I would not think 
so. I wouldn't have even thought so during the Cold War, I 
don't think. The question was never whether they were going to 
undertake an aggressive war or not. Neither we, nor our NATO 
allies, is going to make an aggressive move against Russia. I 
take it for granted that defense against aggression is a duty 
of every state. The provision of prudent defense against 
others, against aggressors, is an obligation of every 
government, in fact. I would think it was Russia doing its duty 
vis-a-vis its own citizens, which is to provide for their 
defense.
    By the way, President Reagan felt that way too.
    Senator Akaka. At this time--let me just finish with this, 
because I know you have known the situation there since you 
were very active in the administration following that, and 
follow with this question: Do you think we should share 
defensive technologies with Russia?
    Ambassador Kirkpatrick. I think we should consider sharing 
defense, perhaps, with Russia. I am not prepared to share 
technologies with Russia at this stage, because of Russia's 
instability, frankly, and the uncertainty of the character of 
its own government. But I would be willing to maybe share its 
defense, some effort to assist in its defense. That's a 
different issue.
    Senator Akaka. I thank you so much for your responses. I 
really appreciate it.
    Senator Cochran. Thank you, Senator.
    One final question occurs to me, Dr. Kirkpatrick, and it 
relates to the nature of our defense system that we are 
developing with a view toward deployment as soon as technology 
permits, and that is that it is a limited national missile 
defense system. I think it may be incumbent upon us to 
emphasize this in our relationship with other officials from 
Russia, as we do encounter them on visits there and they come 
here.
    There's a meeting scheduled in Berlin in August, for 
example, sponsored by the Aspen Institute, where there will be 
officials from both the Duma and the U.S. Congress meeting to 
talk about how to improve and stabilize the relationship. That 
is to stress what our goals are when we do meet with the 
Russian officials. It's not to defend against attacks from 
Russia. It's to defend against a rogue state attack, or a 
limited missile defense attack, or an accidental or 
unauthorized launch of an intercontinental ballistic missile.
    It seems to me that we do have that in common, and that is, 
a vulnerability to that kind of attack. Russia and the United 
States have that in common. Is this one way that you would 
suggest that we might begin discussions at that level, 
parliamentarian to parliamentarian, to try to reassure them 
that it's not our intention to endanger Russia with the 
deployment of a national missile defense system, but simply to 
protect ourselves from this other kind of attack, and that they 
may end up wanting to deploy a defense against limited 
ballistic missile attack as well, because of similar concerns 
they might have from other states, not the United States, but 
other states?
    Ambassador Kirkpatrick. Senator Cochran, it might be an 
interesting conversation. I think, myself, candidly, that we 
need to work toward a less limited national defense system. I 
am personally not very interested in the argument, the case for 
a missile defense system which is limited to missiles from, one 
missile from North Korea, although that could be very 
destructive and very dangerous.
    But I think as long as we're working on the problem, it 
would be more cost effective and more prudent to work on a 
system that provided a broader defense for America. Good luck 
in your conversations.
    Senator Cochran. But it doesn't have to result in an 
unlimited defensive arms race between the United States and 
Russia, or the United States and anybody else.
    Ambassador Kirkpatrick. No. Senator Cochran, see, I don't 
think there's ever been a defensive arms race in history. And I 
don't really think there could be a defensive arms race. I 
don't see and I don't hear anyone seriously foreseeing a 
defensive arms race, either with Russia or China or any of the 
various states that are concerned with nuclear development and 
capacity today. I just mention that.
    The strategy of defense is a strategy that is adopted by 
people who are above all interested in the survival of their 
own society and its people. I thank you for inviting me today.
    Senator Cochran. Thank you very much. You've been an 
excellent witness and we appreciate so much your being here.
    Ambassador Kirkpatrick. Thank you so much.
    Senator Cochran. Our next panel, we would invite to come 
forward, Robert G. Joseph. Mr. Joseph is former Ambassador and 
a Commissioner to the ABM Treaty's Standing Consultative 
Commission. He's Director of the Center for Counter-
Proliferation Research at the National Defense University.
    John Rhinelander is Senior Counsel at the law firm of Shaw 
Pittman and former legal advisor to the SALT I delegation.
    We appreciate very much you being here today, and we 
welcome you. Mr. Rhinelander, let's begin with you. You may 
proceed.

   STATEMENT OF JOHN B. RHINELANDER,\1\ SENIOR COUNSEL, SHAW 
      PITTMAN, AND FORMER LEGAL ADVISER, SALT I DELEGATION

    Mr. Rhinelander. Thank you, Mr. Chairman, Senator Akaka.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rhinelander appears in the 
Appendix on page 52.
---------------------------------------------------------------------------
    I have a 10-page statement which I would like to submit to 
the record and then briefly summarize some of the points, 
rather than reading the full statement.
    Senator Cochran. Thank you very much. We will appreciate 
that, and your statement will be made part of our hearing 
record in its entirety.
    Mr. Rhinelander. Thank you.
    Just for the record, I was the legal adviser to the SALT I 
delegation that negotiated the ABM treaty. I, in fact, drafted 
the treaty originally. There then were 100 hands on it, so 
nobody can claim full authorship of it.
    I have written extensively about that treaty in book 
chapters, testimony on the Hill, etc. I will be frank to say 
that when I accepted Gerard Smith's invitation to come to 
Vienna to prepare to draft the treaties I thought I was 
undertaking a 2-week assignment. It is now 28 years and 
counting. I never thought that would be the case.
    Let me say that in terms of the treaty, while I have 
written extensively on it, I have not had access to the 
classified record since I left the SALT world in 1972. I have 
written from my memory, which I think is pretty good. I have 
talked to a lot of people.
    I do understand that a 100-page analysis of the treaty that 
I wrote when I was legal adviser to the SALT I delegation is in 
the process of being declassified. It was classified top secret 
at the time. I don't know how long that process will take. 
Presumably some day, perhaps while I'm still alive, you will 
have a contemporaneous view of what the U.S. SALT delegation 
felt the treaty meant at the time we negotiated in 1972.
    Let me start with three basic points before I get to the 
details of the treaty. On the details of the treaty, it may be 
best to handle it by questions and answers.
    First of all, on the technology--I spent my Army years with 
missile defense, going back to the late 1950's. It was a first 
generation system called the Nike system. So I've been involved 
in this world for more than 40 years.
    We are still unable to achieve the extraordinarily 
difficult task of intercepting an incoming ballistic missile, 
at least a long-range, high-speed missile, whether or not it 
has multi-warheads or whether or not it has chaff and other 
kinds of systems. Not because we haven't tried, we have tried 
very hard. But it is an extraordinarily difficult challenge. 
The Russians haven't been able to do it either. They have a 
system around Moscow which was no good in the 1960's and 1970's 
when they put it up, and it's no good right now.
    If the United States goes forward with a ballistic missile 
program, I would urge the Subcommittee and others in the 
Congress to make sure there is a realistic testing program. We 
have not always had that in the past. I was down at White Sands 
twice in my days in uniform when the tests were not realistic. 
A couple of years ago, I went to the Army's national training 
center which deals with ground forces, which is a remarkable 
place. I would urge the Subcommittee to think about having 
something as realistic as that if, in fact, we are seriously 
going to count on missile defense to defend either the 
continental United States or in the theater.
    Second, the threat--I know my views may differ from others, 
but I have ranked the threat. I think the single most important 
threat now is the Russian strategic systems. These are the only 
ones that could destroy the United States. They could destroy 
us utterly, we know that, with only a fraction of the ones they 
still have working.
    The second threat I would say is the very large number, 
we're not sure how many, of the Russian tactical systems, 
whether or not they're aimed at our treaty allies. The loose 
nuke problem with the Russian tactical system is very real. I 
think our people aren't sure the Russians know where all their 
systems are.
    Third, and the thing that makes nuclear weapons different 
from anything else, is the highly enriched uranium and the 
plutonium. A number of years ago a Harvard group estimated that 
the Russians had enough material, based on conservative usage, 
that means relatively high use on weapons, to make 100,000 
nuclear weapons. A small fraction of that material leaking out 
would be an absolute disaster. These three Russian parts of the 
equation to me are the ones which are by far and away the most 
serious.
    Fourth, I would go next to the Chinese. The Chinese are in 
the process of modernizing their systems. I don't know where 
they're going to go. I know they are converting from liquid 
fuel to solid fuel on some of their missile systems. I do not 
know whether they are going to be MIRVing, I don't know where 
their MIRV program stands. And I don't know what numbers they 
are likely to aim at. But it certainly seems to me that is a 
question which ought to be of concern to us.
    When we first got into the engagement with the Soviets, 
McNamara made a famous speech in 1967 focusing on the Chinese 
threat. It didn't exist at the time. Well, China is now coming 
forward. So that is something we've got to look at 
realistically.
    Fifth, I would put Korea and Iraq and some of what I would 
call the rogue states. I have never viewed the threat from 
those countries as long-range, that is ICBM-range with nuclear 
weapons. There is a terrorist threat, there is a short-range 
threat, a threat with delivery by aircraft or ship, which seems 
to me is much more likely than missiles.
    I can recall, because I'm old enough, the original testing 
programs, of U.S. programs, the Polaris program at sea and the 
original ICBM programs. Most of our early missile tests failed. 
It is tricky to do that. Korea has a long, long way to go 
before they ever develop the full-range intercontinental, and I 
view that as the least likely of their targets. But that's my 
own judgment.
    Is it a possible threat, is it a theoretical worst case 
threat? Yes, indeed. But is it a likely one, or is it high on 
the ranking? Not in my mind.
    I think we need more than anything else, and I don't think 
it has been done honestly since 1969, the first year of the 
Nixon Administration, a thorough, comprehensive review of the 
offensive-defensive equations before the United States makes 
any serious decisions. I think this will have to be undertaken 
by the next administration. I don't think it's going to be done 
by the Clinton Administration in year 7 or 8 of their reign.
    But if this is done, it's going to be much more complicated 
than when I was in government. Then we were looking only at the 
Soviet Union. You've got China now, you've got the rogue states 
right now. If in fact we are seriously looking at an end stage 
of reductions around the world of offensive systems, you've got 
concerns about NATO allies, including the French in particular, 
which are nuclear armed. It will be much more complicated than 
anything we undertook in 1969.
    I think that ought to be done, though, before any decisions 
are made to go forward.
    With respect to the ABM treaty, the treaty is a relatively 
short document. It was designed and written, and I think 
effectively, to limit severely what could be deployed to a 
fixed land-based mode in originally two, then one, site. The 
prohibitions made sure that the programs which were over the 
horizon could not be taken without the treaty being amended. 
Those would be the sea-based, the air-based and the space-based 
systems.
    I must admit that when I was in this world, and reflecting 
the views of others who were on the SALT I delegation, we felt 
we could look ahead about 10 years in terms of technology. But 
we couldn't look much beyond that. I thought personally that 
the ABM treaty would be worked on through the Standing 
Consultative Commission; the treaty amended, interpreted, as 
you will, as technology changed, so you would have a live, 
viable, modern treaty to go with technology as it was changed.
    That simply has not happened. Basically what you have is a 
treaty which is over 25 years old. Technology has evolved very 
significantly since then. With respect to the treaty and where 
we are going, as far as I know the administration has not made 
any decisions on deployment and does not plan to make any 
decisions until June 2000, a date which may slip.
    I was asked to comment on some proposals coming out of the 
Ballistic Missile Defense Organization. Most of what I have 
seen raises questions on the ABM treaty. I think it's very 
clear that the nationwide prohibition is explicitly on the 
other side of the fence from the system that BMDO proposes.
    The warhead package on the interceptor with a sensor on 
board with the infrared system, which would effectively take 
over from the old ground-based radar and is intended to take 
the missiles to the intercept point, that really is a 
substitute for the ground-based system. That raises the 
earliest question of treaty compliance because that raises a 
question under Article V of the treaty where the testing as 
well as the deployment is prohibited. If you're only looking at 
deployment issues, you've got a lot more time. If dealing with 
testing prohibitions, that's another matter.
    Rather than go through all the other issues, let me say 
that some of the radar proposals, where we're proposing to put 
some of the engagement radars outside the deployment area, that 
is inconsistent with the treaty. If in fact the United States 
is going to deploy initially in Alaska, with some limited 
system, that could not be done either under the present treaty, 
as amended in 1974, or under the original treaty.
    The original treaty allowed two sites. But one had to be 
around the National Capital area, and the Russians have theirs 
around Moscow. The other was around ICBM fields, which is where 
we had ours. We had ours at Grand Forks operational for a 
couple of months. So Alaska would be entirely new. It's not 
inconceivable that that concept is negotiable, to have a site 
up there. But to the extent the key ABM components are not 
within the circular area concept, it would be a very different 
kind of deployment than that thought about and approved in 
1972.
    Let me just conclude with a couple of comments. When we 
negotiated the ABM Treaty in the Nixon Administration, we were 
concerned because the Russians had moved first in this world. A 
lot of people forget it, but the Russians first deployed an ABM 
system around Moscow. Even before that, they put up a surface 
to air missile system around Talinn, in the Baltic area, which 
our intelligence people first thought was ABM.
    It wasn't, but when they began putting the Moscow system 
up, the concern was that was the first in what was going to be 
many steps. We responded in two ways. One was the MIRVs, multi-
independent re-entry vehicles, and the second was our own ABM 
system which we had operational for 6 months and then shut down 
because it wasn't cost-effective.
    In conclusion, and I will answer any questions you want on 
the technical side, I think the United States has a choice. If 
we go forward with the kind of system which we're talking 
about, which you've asked me to review, it cannot be done 
consistent with the present ABM treaty. Whether or not it is 
negotiable with the Russians is an open question. It would be 
difficult. I don't think I would live long enough to go through 
that kind of negotiation.
    Basically what you're talking about is a world constrained 
on offense with defense not constrained. If we go forward on 
the ballistic missile defense side, we give up what I think are 
two of the great recent triumphs of U.S. diplomacy, and that is 
the ban on the land-based MIRVed ICBMs, the Russian systems, 
and the ban on the heavy Russian systems. For 20 or 30 years, 
this was our priority objective, to get rid of those.
    There is no way Russia will agree to the START II ban if we 
go forward with ABM outside the ABM treaty as presently is or 
as amended. If amended, that would be fine. But I think that 
choice is going to be there.
    Now, Russia is clearly not going to stay where they are. 
They're not going to build a defensive missile system. They 
don't have the technology to do it. Their present system is no 
good. They don't have the money to do it. They are going to 
cannibalize, I think, what they have, and keep their SS-18s up 
as long as they can. They can't produce new ones, because the 
production line was in part in Ukraine.
    But I think they will try to MIRV their new systems, and 
keep up as many of the old as they can. That is what the choice 
is going to be.
    I would just note to you that in terms of the present 
world, in many ways, what we're facing now is fundamentally 
different, of course, from the old Soviet days. In some ways, 
it's more threatening. The Russian economy is going to hell. 
Their ICBM systems are not being maintained as they used to be. 
Their boats are basically kept in port because they're 
dangerous to take out and take underwater.
    Their early warning system is blind for 2 or 3 hours every 
single day. They don't know whether in fact we have fired at 
them. In terms of strategic stability, we are in a very, very 
dangerous world, because of their weakness, not because of 
their strength which we saw when I was involved in this world.
    So I think we have a very difficult world to deal with. I 
think it's a world, as I said, we really need to look at 
comprehensively before we go forward with anything such as a 
ballistic missile defense deployment. Thank you.
    Senator Cochran. Thank you very much, Mr. Rhinelander.
    Ambassador Joseph, welcome and you may proceed.

STATEMENT OF ROBERT G. JOSEPH,\1\ DIRECTOR, CENTER FOR COUNTER-
PROLIFERATION RESEARCH, NATIONAL DEFENSE UNIVERSITY, AND FORMER 
      U.S. COMMISSIONER, STANDING CONSULTATIVE COMMISSION

    Ambassador Joseph. Mr. Chairman, Senator Akaka, thank you 
for the opportunity to testify today. It truly is an honor for 
me to be here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ambassador Joseph appears in the 
Appendix on page 61.
---------------------------------------------------------------------------
    It's necessary for me to state at the outset that the views 
that I am about to express are personal views, they are not the 
views of the National Defense University, the Department of 
Defense or any agency of the U.S. Government.
    The prepared statement that I have submitted responds to 
the issues included in the Chairman's letter of invitation. 
That statement provides assessments of: First, the principal 
changes to the ABM treaty that would be necessary to permit the 
deployment of even a very limited missile defense; second, 
additional treaty modifications that might be required to 
counter the missile threat as it is likely to evolve; and 
third, the prospects for achieving such changes to the treaty. 
I will summarize from this prepared statement.
    Mr. Rhinelander has addressed a number of treaty provisions 
that would have to be altered if we are to pursue the ground-
based architectures currently being considered. And on this 
subject, I would emphasize only one point. The words of Article 
I of the ABM treaty are very clear. If one applies plain and 
ordinary definitions to the terms that are used, I believe the 
language makes evident the need to confront the very basic 
contradiction between today's imperative to deploy missile 
defenses to protect our population against ballistic missile 
attacks from rogue nations, and the underlying strategic 
rationale of the treaty.
    Designed in the bipolar context of the Cold War, the 
express objective of the treaty was to severely restrict 
defenses in order to preserve and ensure the credibility of 
offensive nuclear forces. In other words, by ensuring the 
vulnerabilities of our societies to nuclear attack, the treaty 
was seen as promoting strategic deterrence.
    I believe very few would advance this same deterrent 
concept today for states such as North Korea or Iran. Yet the 
treaty does not provide an exception for defense against such 
threats.
    Moving to the issue of negotiability, which I have been 
asked to address in my opening statement, I would note that 
Secretary Cohen's announcement last January that the United 
States will pursue a defense against rogue states armed with 
long-range missiles is a most welcome statement. It appears at 
least to me to return to and reaffirm the rationale for missile 
defenses that was articulated during the Bush Administration, 
for which I had the opportunity to serve.
    In this context, I think looking back can be very 
instructive in assessing some of today's arguments. In 1992, 
following the Gulf War and the attempted coup in the then-
Soviet Union, the Bush team put forth both a deployment plan 
and an arms control initiative to support this deployment. The 
concern was really two-fold: A rogue state armed with a small 
number of ballistic missiles that could strike American cities; 
and second, an accidental or unauthorized launch, perhaps from 
a breakaway military commander in the Soviet Union.
    To deal with this limited threat, the United States 
declared its intention to deploy what was called GPALS, or 
Global Protection Against Limited Strikes. For the near term, 
this architecture consisted of up to 6 ground-based sites with 
up to 1,200 interceptors, a space-based sensor capability and 
robust theater missile defense.
    On the arms control side, the United States formally 
proposed fundamental changes to the ABM treaty consistent with 
the GPALS concept. These included the elimination of all 
restrictions on development and testing, in order to preserve 
our ability to increase the competence of our defense in the 
future; the elimination of restrictions on sensors; the 
elimination of restrictions on the transfer of systems and 
components; and the right to deploy additional interceptors at 
additional fixed deployment sites.
    In Washington, Moscow and Geneva, American representatives 
presented these positions to the Russians, stating that the 
emerging threat of long-range missiles compelled changes to the 
treaty. The Russians were told that we could work together on 
defenses, but that with or without them, we must protect 
ourselves from limited attack.
    It was also made clear to the Russians that the level of 
defenses we envisioned would not threaten the offensive 
capability of the Russian nuclear force at START levels or even 
well below those levels. At the same time, we stressed to the 
Russians that the United States and Russia should not base 
their new relationship on the Cold War doctrine of mutual 
assured destruction but rather on common interests and 
cooperation.
    The Russian reaction at that time I believe was most 
telling. They didn't say yes and they didn't say no. They 
listened and they asked questions. But most important, while we 
were negotiating on basic changes to the ABM treaty, the 
Russian START negotiators continued with those negotiations and 
in fact, concluded those negotiations, which provided for the 
first time for real reductions in offensive forces. That the 
U.S. position on the ABM treaty did not affect the Russian 
willingness to agree to offensive cuts was evident in their 
signing of both START I and START II in quick succession.
    Nevertheless, in 1993, the new administration reversed 
course on both national missile defense and renegotiation of 
the ABM treaty. For years, this policy position has prevailed, 
often justified by two arguments. First, we have been told that 
we must choose between offensive reductions and even limited 
defenses. Second, we have been told that the rogue nation 
threat is many years distant. I believe that both experience 
and facts stand in stark contrast to these positions.
    Yet the future of defenses is far from certain. Neither the 
North Korean launch of the TaepoDong missile this past August, 
a multi-staged, long-range missile, nor the recent legislation 
that makes it the policy of the United States to deploy 
defenses as soon as technologically possible, may lead to the 
actual deployment of effective defenses.
    In fact, the administration has reaffirmed that it has not 
made a decision to deploy, and that it continues to uphold the 
ABM treaty as a cornerstone of strategic stability. Such an 
approach, we are told, is necessary to save START II, a treaty 
that Moscow has held hostage so many times to so many different 
objectives over so many years, that I think few now believe it 
will ever be ratified by the Duma, or if it is ratified, that 
it will have much substantive impact.
    Nevertheless, how Russia will react to our deployment of 
missile defenses is, it seems to me, an important question. A 
number of Russian and American officials have predicted dire 
consequences if the United States pushes to amend the ABM 
treaty or withdraws from the treaty, even though both courses 
of action are entirely consistent with our legal rights.
    Similar predictions were voiced in the context of NATO 
enlargement and in the context of U.S. strikes on Iraq. Yet in 
both of these cases, Russia acted on the basis of its interests 
and not on the basis of its press statements.
    The same is true regarding our arms control experience. 
When NATO in response to the deployment of Russian SS-20s 
decided to deploy intermediate range nuclear forces while 
simultaneously negotiating for the elimination of this entire 
class of weapon, the Soviet Union made stark threats to test 
the alliance's resolve. Moscow promised to walk out of the 
negotiations when the first NATO missiles were deployed, and in 
fact, they did in November 1983, when the first Pershing IIs 
arrived in Germany.
    But when it became clear that the determination of the 
alliance would not be shaken, the Soviet negotiators returned, 
and the result was a total ban on these nuclear weapons.
    The most recent arms control example of Russia pursuing its 
own interests in the context of changing strategic realities is 
in my view perhaps the most instructive. When the end of the 
Soviet Union led Russia to conclude that the legal limits on 
forces in its flank areas as established under the CFE treaty 
were no longer in the interest of Moscow, its approach was 
straightforward: It insisted that the treaty be changed. The 
United States and other parties accommodated this demand in the 
Flank Agreement.
    Since then, citing further changes in the security 
environment, I understand Russia is again insisting on 
additional changes to this treaty. The principle seems to be 
clear. Russia assesses the value of arms control agreements in 
the context of its defense requirements. When the security 
conditions change, it acts with determination to change the 
treaties.
    For us, the parallel to the ABM treaty and the principle I 
would argue, should be the same. This leads to two final 
observations on the issue of negotiability. The first is on 
timing. Given the stated Russian goal of retaining the ABM 
treaty without change and given Russian fears that any U.S. 
deployment of defenses will provide the base for a robust 
defense that could threaten the viability of their offensive 
strategic forces, any negotiation can be expected to be long 
and difficult.
    Such negotiations, if we pursue that path, will not be 
successful in my view unless the United States has a clear 
deployment objective and the perceived resolve to move forward, 
even if that requires withdrawal from the treaty under our 
supreme national interest clause.
    In light of the pace of missile programs in countries such 
as North Korea and Iran, we simply don't have the luxury to 
devote years to the renegotiation of the ABM treaty. The second 
observation is that in attempting to modify the treaty, to 
permit limited defenses, we need to ensure flexibility to 
counter missile threats as they continue to evolve, taking full 
advantage of developments in technology.
    Narrow relief to allow for ground-based interceptors, to 
protect against a very small and crude missile threat in the 
near-term, must not be purchased at the price of fixing in 
concrete a future that does not permit us to adapt our defenses 
to meet the threat as it develops. The findings of the Rumsfeld 
Commission and the launch of the TaepoDong missile underscore 
that the threat is here now and will become increasingly 
sophisticated.
    To protect against this evolving threat, one that may very 
well include ship-launched attack, the United States may need 
to develop and deploy sea and space-based defenses. In fact, 
such basing modes may well be the most cost-effective means to 
protect against the threat.
    In terms of longer-range objectives, I'll limit my remarks 
to two final points.
    First, prudent defense planning must give priority to the 
rogue state threat. I believe most everybody agrees that the 
proliferation of nuclear, chemical and biological weapons 
represents a major security challenge for the United States.
    I also believe that we are near consensus on the missile 
threat. The National Intelligence Estimate that concluded that 
we would have warning and that we would likely not face a long-
range missile threat for 15 years has been widely repudiated.
    In the area of proliferation shocks and surprises, we have 
a long record of intelligence failures. From Sputnik and 
missiles in Cuba to the recent TaepoDong launch, there is every 
reason to believe that we will be surprised in the future about 
the size, scope and speed of adversaries' missiles programs. 
The same applies to their programs to develop weapons of mass 
destruction.
    I think most important, North Korea has settled the debate. 
We now have a desperate, totalitarian regime that could, we are 
told, possess a couple of nuclear devices, in the possession of 
long-range ballistic missiles.
    Second, it is incumbent upon us to consider the strategic 
uncertainties that exist with both China and Russia. China 
highly values both its nuclear arsenal and its ballistic 
missile force. The degree of value can best be judged by 
observing Beijing's actions. Its behavior--such as the 
overflight of Taiwan with ballistic missiles, the ongoing 
deployment of much greater numbers of ballistic missiles 
opposite Taiwan, and espionage at our nuclear laboratories--
speaks very loudly. This is a country that intends to possess 
these capabilities for the long-term, and to use them as a 
means to advance its agenda.
    The question is what are we going to do about it? 
Specifically, are we going to accept the relationship of mutual 
vulnerability with China? If not, we must assess accordingly 
our defense requirements and the wider related implications.
    Like China, Russia also highly values its nuclear and 
ballistic missile force. In fact, these weapons play a greater 
role today in Moscow's defense planning and declaratory policy 
than in the past. Despite its economic distress, despite its 
conventional forces literally deteriorating in the field, 
Russia continues to invest in its nuclear and missile 
infrastructure. Whether we like it or not, this will remain a 
condition of the security environment for years to come.
    Here the question is how best to promote better relations 
and how to hedge against risks. In terms of improving our 
strategic relationship, I believe we should advance cooperation 
in areas of common interest, such as in areas of cooperative 
threat reduction and perhaps in sharing early warning data.
    Most important, we need to move beyond the policies based 
on the philosophies and distrust of the Cold War. Here there is 
no better example than the 1972 ABM treaty. Put directly, we 
need to move beyond the ABM treaty. Promoting mutual assured 
destruction as a basis for a healthy relationship is not sound 
strategic policy. Prolonging the Faustian bargain that we can 
destroy each other's populations inevitably has a very 
corrosive effect on our relations and how we perceive each 
other.
    In conclusion, we must move to meet our national missile 
defense requirements while attempting to place our strategic 
relationship with Russia on much firmer ground. One clear 
requirement, an imperative, I believe, is to deploy strategic 
defenses sufficient to meet the now-present and growing 
ballistic missile threat represented by hostile regional and 
rogue states.
    This can be accomplished, I believe, consistent with our 
other national security goals. As I noted, we made formal 
proposals to this effect during the Bush Administration while 
making it very clear that Russia would not have a veto over our 
defense needs. We sought to reconcile their concerns while 
meeting U.S. security requirements against what was then 
assessed to be an emerging threat, the threat that has now 
emerged.
    That concludes my opening statement. I thank you and look 
forward to your questions.
    Senator Cochran. Thank you, Ambassador Joseph.
    You both have set the stage, I think, for a very 
interesting dialogue about the relevance of the Anti-Ballistic 
Missile Treaty to current threats to U.S. security.
    Mr. Rhinelander, you pointed out that the technologies of 
1972, when you were working to help write the Anti-Ballistic 
Missile Treaty, are much different from what they are today. 
The emergence of previously unthinkable capabilities, such as 
space-based tracking sensors, interceptor missiles that perform 
many of the tasks that were done by the ABM radar back in those 
days, are examples. Does this suggest that the ABM treaty is 
technologically obsolete?
    Mr. Rhinelander. I don't think it's technologically 
obsolete, but if you wish to constrain or commit more than is 
allowed by the treaty as we wrote it in 1972, obviously you're 
going to have to amend the treaty. Because it does prohibit 
many of the things which are listed, at least in the BMDO 
documents--the kinds of components which BMDO is thinking 
about.
    It's a different question, of course, whether we want to go 
that way. But if in fact we do go that way, there would have to 
be very significant changes, really all the substantive 
articles of the ABM treaty, or we would have to abrogate, which 
we have the legal right to do.
    No country has given notice and in fact withdrawn from an 
arms control treaty since World War II. North Korea gave notice 
and backed out 2 or 3 days before the final date. While 
withdrawal is legally permissible, it is a very significant 
political act to do that. No country has done it yet.
    Senator Cochran. In Article I of the treaty, there's a 
prohibition against the deployment of a territorial defense. It 
obligates the sides, ``not to provide a base for such a 
defense.'' What does ``provide a base'' mean for you?
    Mr. Rhinelander. The ``provide a base'' concept was put in 
the treaty in 1972 to prohibit the long lead time items that 
might then lead on to an ABM defense. We didn't want the 
Soviets, for instance, to begin placing big engagement radars 
all over the Soviet Union, which would be a precursor for a 
national defense.
    The Krasnoyarsk radar, if you remember that notorious being 
a few years ago, I always thought was an early warning radar, 
and I think it proved out to be in the end. But the concern by 
others was it was an engagement radar in the wrong place, and 
was a precursor to others.
    That is what we are talking about by a base. A point I 
should have made in my earlier statement, and I didn't, is that 
a basic concept of the ABM treaty was a buffer zone, both in 
space and time. We wanted the longest warning time we could get 
against Soviet actions that indicated they were going to go 
against the treaty.
    Now, if you amend the treaty to take care of a lot of the 
current technology which is being thought of now, basically you 
eliminate the buffer zone almost entirely. We talk, and I think 
you have to talk when you're dealing with military matters, 
about capabilities and intentions. I was taught this when I 
first went in the Pentagon 30 years ago. In terms of 
capabilities, if you have hot production lines, if you have 
sensors in space, if you have radars forward, then you have 
severely eroded the buffer zone, the kind of buffer zone we 
wrote into the treaty.
    Now, that may be what we want to do. But we ought to 
recognize that if we go that way, the treaty will no longer 
provide for either side, or for anyone, the long warning time 
that the present treaty does.
    Senator Cochran. Ambassador Joseph, the other day the 
manager of the Boeing program for national missile defense said 
that treaty issues have to be resolved by June of the year 
2000, or the treaty would hold up the ability to deploy the 
system by fiscal year 2003. The Secretary of Defense at the 
same time suggested that the administration intends to maintain 
the option of deploying a national missile defense by 2003.
    Do you think it's realistic to expect that the actions that 
have to be taken to resolve the conflicts in the treaty can be 
accomplished in time to actually deploy a system by fiscal year 
2003?
    Ambassador Joseph. Senator, that's a very difficult 
question to answer. Let me say that if we do choose the route 
of renegotiating the ABM treaty, I believe that we should begin 
to engage the Russians now, if we are to have any hope of 
achieving the changes that would be necessary for us to deploy 
effective defenses.
    The time that such negotiations would take is obviously 
dependent on a number of factors. As I stated in my opening 
comments, Russia is likely to seek to draw out the 
negotiations. They have very little incentive to change the 
treaty.
    We, however, don't have the luxury of time, given the pace 
of the ballistic missile programs in countries like North Korea 
and Iran.
    In my view, there is sufficient time to achieve an 
acceptable negotiating outcome with Russia if at the outset the 
Russians know that we are serious. I think this can only be 
demonstrated by real programs and real policies and by the 
demonstration of resolve to move forward to deployment, even if 
that means we are compelled by Russian intransigence, to leave 
the treaty, which is an option that is entirely consistent with 
our legal rights.
    I think most importantly, we must avoid mixed signals. And 
we must be clear in explaining how defending against the 
missile threat from rogue nations is an imperative on our part, 
and that it requires us to modify the treaty. If that is not 
feasible, if that's not achievable, again, we will be required 
to leave the treaty.
    We took this approach in 1992. We did it in negotiations 
that were non-confrontational, but were done in a determined 
way, and in a way that made very clear that it was also in 
Russia's interests to change the treaty. Because a modified 
treaty, in their calculation, is better than no treaty at all.
    Senator Cochran. Which treaty are you referring to? Is that 
the demarcation agreement?
    Ambassador Joseph. That's when we proposed the fundamental 
changes to the ABM treaty in 1992, following the Gulf War and 
the attempted coup in the Soviet Union. This was the arms 
control initiative that was done in the context of the GPALS 
deployment.
    Senator Cochran. What is your view about the practical 
consequence of our decision, if we make it, to announce that we 
are withdrawing from the treaty?
    Ambassador Joseph. Senator, I see very few practical 
consequences in that context. Given Russia's economic distress, 
I see little chance for an arms race. In fact, we are told by 
just about every analyst, American and Russian, that Russia, 
for budget reasons, will have to go to lower and lower numbers 
of strategic offensive forces.
    On the political side, I believe that Russia will 
understand and will accept our need to deploy defenses. They 
certainly won't like it. But they'll accept it, just as they 
have accepted our decision to enlarge NATO and to use force 
against Iraq. I think at the end of the day, if the Russians 
are given assurances that our defenses will not undermine their 
nuclear offensive capability, they will have what they believe 
they need, independent of whether or not the renegotiation of 
the ABM treaty would be successful.
    Senator Cochran. Mr. Rhinelander, I'm going to yield to my 
colleagues for their questions, but before doing that, I'm 
going to ask you what your answer to that same question is.
    Mr. Rhinelander. Assuming it's the question of giving 
formal notice of withdrawal under the ABM treaty with 6 months 
notice, which of course we can legally do, I think that means 
the end of limitations on all nuclear weapons between the 
United States and Russia. And the question is, what is Russia 
going to do. They are not going to build an anti-ballistic 
missile system, as they could have done in the 1970's. Because 
they don't have good technology, they don't have the money, 
that's not the way they're going to go.
    I think more likely than not, they're going to scramble 
around to keep as long as they can their present MIRVed ICBMs, 
the SS-18s, in the field, and probably work to MIRV, putting 
the multi-warheads on their new Topol M.
    Two things on that. I have been told by people who have 
access to the classified information, which I don't any more, 
that they could probably keep the SS-18s up another 5 years, 
maybe 10 years at the most, beyond the present period of time. 
We have kept our Polaris systems, our boats and other things, 
in service long, long after their useful life.
    But their maintenance has been so bad in their liquid fuel 
missiles that they're not going to be able to keep those 
systems up forever. But they certainly are going to try to keep 
them active as long as they can by cannibalizing one to keep 
another one going. They'll do the same thing with their boats 
tied up in port, they won't take them out, because they're a 
threat. And they'll clearly, I think, try to produce a new 
missile with multi-warheads.
    As I indicated earlier, I think one of the great 
achievements over the last years was to get the agreement of 
the Russians to no more MIRVs on the land-based systems and no 
more heavy missiles. I think that agreement goes down the tubes 
if we give notice to withdraw from the ABM treaty. So it's a 
different kind of reaction than what they would have done in 
1972.
    Senator Cochran. Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Rhinelander, I'm impressed to hear that you were one of 
the original writers of the ABM treaty. Also, about your 
feeling that if we are going to try to improve our technology 
that we must be sure that there is a realistic testing program. 
Is it your view that testing of an NMD system would require 
renegotiation of the ABM treaty, and if so, does this preclude 
the United States from deciding on the NMD architecture?
    Mr. Rhinelander. I think the answer is, in some cases it 
would. But of course, it would depend on the elements chosen. 
This goes to a question that the Chairman asked Ambassador 
Joseph earlier. I think the early issue is not the deployment 
issues. I think it's the testing issues of those components 
which run up against Article V of the ABM treaty, which 
prohibits the testing of spaced-based, the sea-based, the air-
based, etc.
    The front end of the missile interceptor, as it has been 
described in the documents which were given to me, has a sensor 
on board that effectively takes the place of the old ground-
based radar. It's a homing system, an infrared system. That 
substitutes for the old ground-based engagement radar as we 
knew it in 1972.
    The testing of that is prohibited by Article V of the 
treaty. So in that case, you would have to have amendment to 
the treaty there, even before you made a deployment decision.
    There may be some other radars and sensors where you'd have 
to amend it, but I'm not familiar with what the testing 
schedule is vis-a-vis getting some elements out into the field. 
But you certainly would have to amend the treaty with respect 
to the interceptors, the smart interceptors, if you will, as 
opposed to the dumb ones being guided from the ground.
    And probably with some of the sensors, particularly the low 
SBIRs, which is again a substitute for a tracking radar. You'd 
have to look at it technology by technology, but some of the 
present systems, as currently being discussed, would require an 
amendment to the treaty to go forward with the testing program.
    Senator Akaka. Ambassador Joseph, you talk about real 
programs that we need to think about and in the future. These, 
I think you also mean, will certainly impact what we do with 
the treaty.
    From your comments you made before this, do you believe we 
should withdraw now from the treaty?
    Ambassador Joseph. Senator, I believe, if I can first just 
refer to one of the earlier questions that the Chairman asked 
Mr. Rhinelander about the obsolescence of the ABM treaty. I 
believe that the ABM treaty is strategically obsolete. I 
believe that we pay a high price for compliance with the ABM 
treaty in terms of the development and--in the future--the 
deployment of even limited missile defenses against small scale 
threats from rogue nations.
    If the treaty ever did make sense strategically--and I 
think that's something that we could explore perhaps in an off-
line conversation--it lost its relevance with the end of the 
Cold War, at least in the context of U.S. interests.
    The ABM treaty doesn't protect us against any threat. The 
ABM treaty doesn't defend us against any threat. In fact, it 
denies us the protection against new threats that weren't in 
existence in 1972. The new threats of rogue states armed with 
long-range missiles, threats that we're hearing a great deal 
about in the context of the Rumsfeld Commission and other 
studies, threats that we're seeing in the context of the North 
Korean TaepoDong launch last August. These are real threats.
    I believe that it is very important how we manage moving 
beyond the treaty with Russia. What we do matters a lot with 
Russia. It seems to me that we don't want to posture, we don't 
want to be confrontational with the Russians. If in fact we do 
choose the route of renegotiating the treaty, what it will be 
about is reconciling interests.
    On the one hand, we do, I believe, have an imperative to 
defend ourselves against North Korean type attacks. On the 
other hand, at least for a transitional period, I can 
understand why the Russians want assurances that our defense, 
in terms of what we deploy, will not undermine the credibility 
of their nuclear forces.
    But I think we ought to aim higher than simply narrow 
treaty relief for the short term, a short term accommodation 
with Russia. I think we need to base our strategic relationship 
not on distrust, not on Cold War philosophies, but rather on 
cooperation and common interests. In some areas, that exists. I 
think we ought to be able to find that same common ground in 
this area.
    Senator Akaka. You say that we paid a high price on the ABM 
treaty. The question about making sense of it, and I repeat 
part of it, and wonder here how you feel about it, my question 
is should we withdraw now?
    Ambassador Joseph. Senator, if you're asking me for my 
personal view, I think that we should withdraw. I think that we 
can find a means of accommodation with Russia outside of the 
treaty. This treaty is not healthy for us and it's not healthy 
for the Russians.
    Again, I can understand a transition period in which we do, 
through a renegotiation of the treaty, provide certain 
assurances. I can understand that. It's certainly better than 
the current position that we have.
    But I think fundamentally, we do need to move beyond the 
treaty, for the sake of our overall strategic relationship and 
to ensure us the capability of protecting against real world 
threats that were simply not part of the picture when this 
treaty was negotiated.
    Senator Akaka. Thank you very much.
    Senator Cochran. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    Ambassador Joseph, I'm interested in your statement both 
that we ought to try to negotiate a new relationship with the 
Russians and we ought to unilaterally withdraw now from a 
treaty which is so important to the relationship. Why you would 
want to unilaterally withdraw before you need to unilaterally 
withdraw in order to make a decision to deploy a system? In 
other words, unless you need to withdraw now in order to 
accomplish your national missile defense goal, you are 
withdrawing prematurely and making it more difficult to 
negotiate with a country that you say you'd like to negotiate 
with.
    I don't quite understand why you would then not take the 
position that national missile defense is important, we ought 
to develop it as soon as we can, and we shouldn't be 
constrained by the treaty in that process. In the interim, 
while this is going on, we ought to try to negotiate with the 
Russians as new partners and friends, rather than adversaries. 
And then when the point comes that the ABM treaty constrains 
our development, if we haven't negotiated with the Russians a 
change in the whole regime or a change in the treaty, at that 
point, we would then make a decision whether to abrogate or 
withdraw from the treaty.
    Why isn't that more consistent with your stated belief that 
we ought to have a new negotiated positive partnership 
relationship with the Russians?
    Ambassador Joseph. My answer to the question that was asked 
about my personal view, whether or not we should withdraw now, 
should be seen in the context of, if not a perfect world, at 
least a more perfect world than we have today.
    I understand the importance that Russia attaches to the ABM 
treaty. Yet, I'm not comfortable with the rationale for why the 
Russians want to continue to perpetuate mutual assured 
destruction. And I think it's fundamentally unhealthy for our 
relationship.
    That said, I am certainly willing to accept the argument 
that for a transitional period, while our strategic 
relationship evolves to a more positive one, the treaty might 
be of some assistance, if renegotiated, to allow us to do what 
we need to do with regard to the imperative of defending 
against rogue threats.
    But I think we need to move beyond that perspective, that 
Cold War perspective, with the Russians.
    Senator Levin. I don't disagree with that. That's not my 
question.
    Ambassador Joseph. I was also going to address another 
aspect of your question, and that is it seems to imply that we 
are not paying a price for staying with the treaty in terms of 
the development of a national missile defense architecture. I 
believe we do.
    Senator Levin. But let me ask you to assume that, since 
that's what the missile defense folks say, if just for the 
purpose of discussion, that we're not paying a price, we're not 
constrained by the treaty. If you could accept that for one 
moment as a hypothetical. If in fact we're not being 
constrained now by the treaty, do you then not see some 
advantage in trying to negotiate treaty changes or a new regime 
with the Russians until we are constrained? Would you agree 
with that as a theoretical matter?
    Ambassador Joseph. Senator, on this issue I have trouble 
with theory. I have trouble with the hypothetical, because I do 
believe that the treaty does impose restrictions on our 
development of defenses. I think that absent the ABM treaty, 
the United States would be considering different deployment 
options than we're considering today. We would be considering 
sea-based, for example, and space-based approaches that are 
prohibited by the treaty.
    Our development program is compliant with the treaty and 
should be compliant with the treaty, but compliance in this 
context comes at a price.
    Senator Levin. Mr. Rhinelander, would you comment on my 
question?
    Mr. Rhinelander. Withdrawal, I think, would be one of the 
more foolish acts we could do at the moment. First of all we 
don't have the technical capability to put a system up so we 
would be getting rid of something which is important in the 
relationship with the Russians for no good purpose right now.
    As I indicated in my statement earlier, I think Russia is 
the principal threat we've got to deal with--their 
capabilities. It's much more important to me than the rogue 
states.
    What we need to do with Russia right now is to sit down 
with them and try to get them to get their warheads off their 
ICBMs, get them out of their submarines, get their fissile 
material under control and get a handle on their tactical 
missiles that we don't know much about. We're not sure that 
they have them under full control.
    These are the kinds of things we need to do with them. I am 
absolutely certain that if we withdraw from the ABM treaty, as 
we're legally entitled to do, the chances of dealing with the 
Russians cooperatively on what I think are the principal 
threats just go out the window.
    There's another thing we should do, and this is almost 
independent of the treaty, but if we withdraw from the ABM 
treaty, that's by the boards, too. I think we've got to work 
out a system to provide early sharing of data, early warning 
sharing. Because the Russians are partly blind. Every day they 
are blind for 2 or 3 hours.
    In the old Cold War day, if we were blind or they were 
blind for 2 or 3 hours, and the worst case thinking was at 
work, maybe they fired a missile the moment we went blind, and 
they won't know until after it hits. I can't think of a more 
serious situation if we ever come to a moment of crisis.
    I understand we've been negotiating, but we haven't gotten 
very far. I don't think we're going to be able to do anything 
constructive with the Russians, though. It starts with--it's 
their perspective, not necessarily ours--NATO expansion. 
Gorbachev and his people thought there was an implicit promise 
that NATO would not move farther east. We have moved east.
    The Duma was going to vote on START II either December 18 
or December 25 if we didn't bomb Iraq. We bombed Iraq. They had 
another vote set for April 2 if the bombing didn't start in 
Kosovo.
    Now, in a sense, the whole system is cursed. SALT I never 
got off the ground at the beginning when the Soviets went into 
Prague. So we have had external events coming up time and time 
again.
    We've got to try to work through these and work 
cooperatively with Russia, because it is the single largest 
threat. They're a bigger threat in their weakness, in many 
ways, than they were when they were strong.
    Senator Cochran. Let me ask a question, Mr. Rhinelander, 
given the concerns about the Russians, and how any defensive 
system in their view would threaten them, is that to you a 
valid concern, that any defensive system that we develop and 
deploy is in reality a threat to their retaliatory 
capabilities?
    Mr. Rhinelander. Senator, you know there's a strange 
history of all this going back 20 or 30 years. They view any 
defensive system that we're thinking about as much more likely 
to work than I do. As you know, I'm very highly skeptical.
    But on the other hand, looking at Soviet systems in times 
past, we looked at these as the greatest threat. I cannot tell 
you how much time we spent at SALT I dealing with what we call 
the SAM upgrade problem. They had a single ABM system around 
Moscow. But they had 1,200 sites for surface to air missile, 
anti-aircraft systems, around the Soviet Union.
    The Pentagon was convinced that with a few tweaks, doing a 
few things here and there, they could make this fairly quickly 
into a robust nationwide ABM system. Personally, I thought that 
was crazy. But we spent an enormous amount of time. We came up 
with partial responses to that concern.
    So I think the answer to your question is that each side 
sees the worst case in the other, whether it's believable to a 
third party is not the question. They did initially with Star 
Wars. They felt Star Wars in fact could do some of the things 
which we felt it could do.
    So I think the answer is not how we feel about our system, 
not our present intent in terms of a limited system against the 
Korean threat. It's partly a question of capabilities and 
partly a question of how they are likely to see it. And they 
see things very differently from the way we do.
    Senator Cochran. Ambassador Joseph, would you comment on 
that question?
    Ambassador Joseph. I certainly agree that it's how they see 
it that's important. But I don't find the Russian concerns in 
this regard to be at all valid. The architectures that we are 
considering for limited missile defense in no way under any 
circumstances provide the type of capability that could 
threaten the offensive credibility of Russian strategic forces 
at levels well below START II, well below even those numbers 
that we've been hearing for START III.
    It's not just numbers, it's also the quality of their force 
and the ability of their individual warheads to penetrate any 
defense that we might build, or any defense that we are 
considering.
    Again, going back to 1992, we talked about this issue with 
the Russians. We talked about it, and they didn't disagree with 
us. We talked about offense-defense, and we had a sound 
conversation. I think they understood that even at the GPALS 
level, which is a much more significant level than the 
architectures that we're considering today, our defenses would 
not undermine the credibility of their nuclear forces.
    And again, in the context of those negotiations on the ABM 
treaty, at our mission in Geneva, we had literally in the next 
room, their START negotiators working with our START 
negotiators. They came to the conclusion that offensive 
reductions in the context of START I was the way for them to 
go, knowing that our position was to make fundamental changes 
to the ABM treaty--much more fundamental than the changes that 
would be necessary to achieve the types of capabilities under 
the various architectures we're contemplating today.
    So I don't believe the Russian concerns are valid, sir.
    Senator Cochran. It seems to me that we're caught in a 
situation where the most logical step for us to take may be 
between what we are hearing recommended today at this hearing. 
Doing what the administration is doing right now, which is 
ignoring the reality that our development program even violates 
the ABM treaty terms, and not engaging the Russians in a frank 
discussion, which is indicated by the emerging technological 
realities of these systems, is in the view of some Russians 
possibly duplicitous, dishonest, and provocative in itself, 
while announcing that we're going to withdraw from the treaty 
would also, I agree, be provocative as well.
    So we're caught between a suggestion for one action that 
would possibly get us in a more dangerous situation than we are 
right now and actions that the administration are taking, which 
are equally proactive in my view. We've got to find a different 
course of action to take, in my opinion.
    I think Ambassador Joseph has suggested the right course. 
I'll withhold making any final decisions about it, but this is 
just my reaction. It seems to me we have to adapt this 
defensive treaty we have with the Russians to the technological 
realities of today, and no longer pretend that we have only the 
technologies of 1972 available to us.
    What's your reaction to that, Mr. Rhinelander?
    Mr. Rhinelander. Mr. Chairman, let me make two comments to 
it. One is that I haven't been in Moscow now for 4 or 5 years. 
I was due there last week, I didn't go. But when I talk to 
Russians, and I think it's probably true with Chinese, who I 
haven't spoken to personally, but I've talked to a lot of 
people who have, they simply can't believe we're going to build 
a system against the North Korean threat, because they know as 
much as we do.
    So they see this system as one really designed against 
them. We can say no, it's not our intention. It's not, but then 
they say, OK, look at the capabilities.
    If we put up the SBIRs low--I don't know how many we're 
talking about--we will have in space a highly capable system, 
if it works the way it's designed to work.
    If we have tested the interceptors with the smart front end 
package to it, even if we put 100 of them just at North Dakota, 
they would look at the breakout capacity we have.
    We would have broken entirely the buffer zone concept that 
we had in the ABM treaty--the long lead time--because we could 
change our mind from a limited system, in their view. I don't 
know how long it would take if we had the production lines open 
to go from 100 interceptors to 200 to 300. It depends on how 
many contractors we have, etc.
    But they don't see it as limited, the way we are describing 
it. There will be a great problem trying to convince them that 
a system with these kinds of components, assuming they would 
work, was in fact going to be as limited as you think it would 
be.
    Senator Cochran. Senator Akaka.
    Senator Akaka. Thanks, Mr. Chairman.
    I'd like to follow up and ask Mr. Rhinelander to comment on 
Ambassador Joseph's comment. This interests me, the comment 
that they just made now that any U.S. NMD architecture would 
not threaten Russia's nuclear force credibility.
    Mr. Rhinelander. If we were to go forward with a testing 
program of the kinds of components which we have here, and if 
we say, OK, we're going to start in Alaska and then we're going 
to put a second site up in North Dakota, we would have the 
production lines open, we would have the satellites in space, 
we would have the interceptors already tested and deployed in 
limited numbers, a couple of hundred.
    The Russians would view that as threatening, not because of 
what the deployed ones could do, unless their systems fall 
apart even faster than I think they are. But they could see us 
with the capability, very quickly, of putting up a system which 
would be much more robust.
    Now, I understand from talking to some Americans who have 
talked to Russians, so it's not first-hand, it's second-hand, 
but sophisticated ones say that one of the Russians' concerns 
right now as we move forward in NATO is with our smart non-
nuclear armed missiles. We could basically take out the systems 
in Moscow, their control system, etc., and they wouldn't even 
know they were coming.
    So they have an extraordinary concern that the way the U.S. 
capability is moving. They are vulnerable, and they might never 
even see the punch coming. If we take some things out, they 
have a few ragged systems to respond, how many left, I don't 
know. But that's what they would be looking at.
    Now, if in case we did strike them with even conventional 
weapons of one kind or another, what would they have left? 
Would they have enough to get through? I think that's the kind 
of analysis which they are going through right now.
    So a lot of it depends, of course, on whose systems do you 
believe. They tend to look at ours and believe everything is 
going to work perfectly. They look at theirs with the high 
failure rates. I think their ICBMs are going to be down into 
the hundreds, maybe 700 or 800, within the next 10 years, even 
as they cannibalize, simply because that's the way things are 
falling apart over there.
    But as they get down to 700 or 800 systems deployed, 
normally you have 20 percent of those systems down at any one 
point in time, doing working modernization and repairs, etc. 
Say they were trying to preserve several hundred, a good many 
aren't going to get off the ground, for different reasons. 
Their worst case analysis will be that, are the Americans going 
to put up enough of a defense so that they could counter a 
ragged retaliatory response, which is all they might be capable 
of 10 years down the line.
    I think that's the way they would look at it. Is it 
rational? I won't say it is. But that's the kind of analysis 
which tends to go on when they look at us or we look to them.
    Senator Cochran. Senator Levin.
    Senator Levin. Let me just ask Ambassador Joseph a couple 
of questions about the SS-18s. Is it to our advantage that 
those SS-18s be dismantled?
    Ambassador Joseph. Absolutely, Senator. I think perhaps the 
greatest achievement of decades of arms control to reduce 
offensive forces was the elimination of SS-18s in the context 
of START II. I think that would be a great achievement, if it 
were to occur.
    Senator Levin. Which means that if we acted in a way where 
the Russians decided not to dismantle the SS-18s that we would 
then have some pluses and minuses in your perspective, it 
wouldn't all be pluses?
    Ambassador Joseph. Senator, they have told us that we have 
acted in such a way when we enlarged NATO and when we struck 
Iraq. They've even talked about this in the context of Kosovo.
    Senator I think your question----
    Senator Levin. I know they've told us that. But let me read 
you what our two leaders, their president and our President, 
have said about the importance of the ABM treaty. I know that 
this is not something you agree with, but it's something which 
they surely feel, and at least this President feels. This is a 
summit statement, this isn't some statement of parliamentarians 
saying, oh, you guys now have hit Iraq, we're not going to 
ratify START II. This is a summit statement of the two 
presidents:
    ``President Clinton and President Yeltsin, expressing their 
commitment to strengthening strategic stability in 
international security, emphasizing the importance of further 
reductions in strategic offensive arms, and recognizing the 
fundamental significance of the Anti-Ballistic Missile Treaty 
for these objectives, as well as the necessity for effective 
theater missile defense systems, consider it their common task 
to preserve the ABM treaty, prevent circumvention of it, and 
enhance its viability.''
    I know you don't agree with that. That's not my question. 
But you've got the President of Russia and at least this 
President of the United States who say that this treaty is 
fundamentally significant to the further reductions in 
strategic offensive arms. They didn't say that about the 
bombing of Iraq or the expansion of NATO. There was no summit 
agreement where two presidents agreed that that's what the 
result would be from either of those two events.
    But here you've got something so central to them that for 
the life of me, I've got to tell you, I don't understand why we 
cannot try to pursue both the development of a limited national 
missile defense and a modification of this treaty, so that we 
can deploy such a system. I don't understand why we would 
withdraw prematurely, as long as our ballistic missile defense 
office says we're not constrained by and we haven't violated 
the ABM Treaty. You may not agree with either of those 
positions, but we've got at least our ballistic missile defense 
folks saying we're not constrained by it yet, and we haven't 
violated it yet.
    For the life of me, I don't understand why, if this 
relationship is important to you, as you say it is, and we know 
it's important to them as they say it is, we don't take the 
time until there is a problem to make a good faith effort to 
negotiate either a totally new regime, which is fine with me, 
or a modification of the ABM treaty.
    I happen to think it is in our advantage to be able to 
deploy a national missile defense system, if we can make it 
operationally effective, and cost-effective. Because I think 
there is a threat. I think there's probably a greater threat 
from trucks, ships, and other sources, by the way. So I don't 
want to put all of our eggs in that basket.
    But there is a threat, and we ought to try to address that 
threat, if we can do so in an operationally effective manner. 
But I don't understand this idea that we've got to prematurely 
now, your testimony is now, say that we're pulling out of the 
treaty, when a good faith statement by our ballistic missile 
defense people is that we have not violated the treaty, and 
that we're not constrained by the treaty. Why not use this 
period of time, until there is some constraint to try to 
negotiate that new regime, if you really believe that it is 
important, and if you really believe that getting rid of SS-18s 
is useful?
    That's a long question, but there it is.
    Ambassador Joseph. Senator, I'll try to answer that. Let me 
say that I think the greatest likelihood is we will go down the 
path of negotiations. In fact, both my prepared statement and 
my opening statement deal with my view on the negotiability of 
making the types of changes that I believe we need to make to 
the treaty in order to provide us not just relief to permit a 
very narrow defense, but to permit the type of defense that can 
evolve as the threat evolves. I think we've all come a very 
long way in terms of our view of the sophistication of the 
threat.
    Senator what I was reacting to is what I consider to be 
this fallacy of false alternatives that often clouds thinking. 
That is, we are forced to make a choice between offensive 
reductions and even limited defenses. I reject that. I do not 
believe that that is a real choice that we must make. I believe 
that in fact we need to pursue defenses, and we need to pursue 
additional offensive reductions with the Russians.
    Senator Levin. Equally?
    Ambassador Joseph. I believe that it is an imperative to 
deploy defenses against the rogue state threat. I believe that 
threat to be real, as you do. I believe that we will have the 
capability to defend against it.
    I think the defense that is required to protect our 
population against that threat will under no circumstances 
threaten the credibility of Russian offensive forces. I think 
that our interests are not irreconcilable. I think our 
interests are not mutually exclusive. I think we have to work 
with the Russians to find accommodation, whether inside or 
outside of the treaty.
    My personal sense is that it is best to do it outside the 
treaty, because the treaty comes at a high price. As long as 
we're in the treaty, we should comply with the treaty. And 
compliance does entail a cost in this regard, a cost with 
regard to the effectiveness of the type of defense that we 
need.
    Senator Levin. Do you think it's also important to try to 
negotiate further reductions with the Russians?
    Ambassador Joseph. Yes, Senator.
    Senator Levin. You do?
    Ambassador Joseph. I do.
    Senator Levin. My last question, but I'd like to ask Mr. 
Rhinelander, if I have another minute, to any comment he might 
want.
    Mr. Rhinelander. Well, as I've said several times, I think 
getting those Russian systems and all the complications we have 
to deal with down and separated is the imperative we deal with. 
We've had inspectors over there at operating missile bases 
where there's basically nobody there, they're all out hunting 
for food. We've heard stories of people out there in submarines 
with gun battles on board the submarines armed with ballistic 
missile systems.
    These are the systems which can threaten us, the only 
systems right now that can threaten us.
    Senator Levin. Threaten us with what, leakage, 
proliferation?
    Mr. Rhinelander. All of that, of course. The ICBMs and the 
SLBMs are the threats to us right now, the deployed systems. 
The administration has a position, we don't move to START III 
until START II is ratified. I would go way beyond that. I would 
sit down with them and say, let's sit down and try to get the 
deployed systems down as fast as possible, move the warheads 
off the missiles. I think you could take the launchers out much 
later.
    They are living in a world of launch on warning as 
doctrine, they are living in a world where they are partially 
blind every day. I think this is the threat we have to face, 
and you have to deal with it by getting their systems down and 
out as fast as we can, which is by negotiation. We have to do 
it mutually. We take ours down, they'll take theirs down.
    It's going to be difficult doing that anyway. Dealing with 
the president of the Russian government is not going to be easy 
under any circumstances. They have elections coming up, and who 
follows orders in Moscow right now is an interesting question.
    But I would focus very much on sitting with them and 
getting these Russian systems down. Because these are the 
things that concern me. It's both the loose nukes proliferation 
question as well as the systems aimed at us.
    On the submarines, they have now got long-range missiles on 
their submarines. They can keep them tied up up north--they 
won't take them out because they may not come up if they go 
underwater--but they can fire from where they are right now. 
These are ones which I would like to see those missiles off, as 
many as possible.
    Another point I would make, if in fact they're likely to go 
down on their own into the hundreds, which I think is where 
they're going to be in 10 years from now. Because of the way 
things are going, the lower they get, because their economy and 
everything else is driving it that way, the greater they're 
going to see the threat of whatever we do.
    If they've got 2,000 or 3,000 strategic ballistic missiles, 
having a couple of hundred interceptors here isn't going to 
change the equation very much. But if they get down to 400 or 
500 operating systems at best, many of which don't work, then a 
relatively modest defensive system in our time could 
realistically change the equation.
    I'll simply close with one final comment, Ambassador Joseph 
said offensive-defensive ought to be separated. They have been 
linked ever since I've been involved in this world. They were 
certainly linked during the ABM and SALT I negotiations, where 
we dealt with both offense and defense. One was conditioned on 
the other.
    The START I treaty is conditioned on the United States 
staying within the ABM treaty. I can remember when Cap 
Weinberger was Secretary of Defense, it must have been 1985. He 
was asked what would we do if the Soviets--it was still the 
Soviets in those days--would begin to put up a nationwide ABM 
defense? He said, of course, we would multiply our offense. And 
of course, that is exactly what we would have done.
    They don't have the technical capability to do a lot of 
things now that they had earlier on. But I am sure they are 
going to keep as many of those offensive MIRV systems up as 
long as they can on hair triggers, which is the biggest threat 
we face today.
    Senator Levin. Thank you.
    Senator Cochran. It seems to me, Mr. Rhinelander, that 
there's agreement that we've come to today that if we continue 
to pursue the national missile defense system architecture that 
has been laid out, we need to negotiate changes in the ABM 
treaty. It seems to me that it's dangerous not to begin that 
right now. Do you agree with that?
    Mr. Rhinelander. Let me say yes and no. I think we 
obviously need, if we had firm decisions now and we knew what 
we were doing, then obviously you've got to negotiate. I think 
until you know exactly what you want to do, you're in an 
awkward position in terms of negotiations.
    Ambassador Joseph or somebody made a comment earlier that 
we ought to make a decision and stick to it. Having been 
involved in this world for 40 years, I guess, I can make one 
comment on the U.S. political system. We never stick with 
anything on this subject very long anywhere. It's left or 
right, it's not biased one way or the other.
    I would add one issue which I haven't commented on but I 
think goes to the heart of those who are proposing deployment. 
And that is to what degree are we willing to share with Russia?
    Ronald Reagan, as you will recall, at the Reykjavik summit, 
made the suggestion we would share our defensive technology. 
Every single advisor he had with him then was absolutely 
horrified at the thought. It hadn't been cleared. And of 
course, it disappeared.
    I don't believe we ever will. I don't believe this 
Congress, any Congress, is going to agree to amend all the laws 
so we can ship over every bit of defensive technology we have 
to Russia. Even if that were done, I don't think the Russians 
would believe we would do it.
    If we keep saying we're going to share and then take it 
back, the Russians look at us and say, you're trying to kid us 
again. If it is humanly possible with our political system, we 
need to come to some coherent decisions and stick with them.
    As I said earlier, I don't see that happening until after 
the national election of the year 2000. We don't have much time 
running before then. One of the earliest priorities of the new 
administration, whichever it will be, whoever is going to staff 
it, is the necessity for a comprehensive review, offensive-
defensive, involving much more than simply the United States-
Russian relationship. I think that's got to be done before we 
undertake some of these steps.
    If we are gung-ho to test a system, presently prohibited by 
the ABM treaty, and we want to go by the book, and the Russians 
don't agree to amendment and therefore we withdraw, we have 
taken a step which I think forecloses avenues which are much 
more productive.
    We've got to look at this thing comprehensively, which we 
haven't done. I know this administration hasn't done it. I have 
no faith that it will be done during the remainder of this 
administration. I have served in the last couple of years of an 
8-year term, and that is not the most productive time.
    So I think we're really looking forward to the next 
administration to look comprehensively at a very complicated 
question and then come up with what's the net interests of the 
United States in this world.
    Senator Cochran. Ambassador Joseph, what is your answer to 
that question?
    Ambassador Joseph. Senator, first, for the record, I did 
not say that we should separate offensive and defense. I don't 
think that is an option, nor would I want to do that if it were 
an option. In fact, in 1992, when we attempted to renegotiate 
fundamental changes to the treaty, the discussions on offense-
defense were very important discussions. We had very frank, 
very serious discussions.
    As I said, we talked about how the GPALS architecture, 
which was much more robust than the ones we're talking about 
today, would not impact on the credibility of their offensive 
forces, and in fact, the START agreements were finalized in 
that context, the context of us stating explicitly that the 
strategic rationale of the ABM treaty as signed in 1972 was 
fundamentally bankrupt.
    I think we need to keep that experience very much in mind. 
Most of all, we need to move beyond this Cold War framework 
that we're talking about even today, such as our advanced 
conventional capabilities taking out their command and control. 
We need to get beyond that.
    I think we can get beyond that. I think we can base our 
interests on common ground, on common interests and 
cooperation. There are many areas in which we do cooperate. The 
co-optive threat reduction initiative is a very important 
initiative in that regard. Perhaps the sharing of early 
warning.
    There are certain areas that we can build on. But let's 
move beyond the Cold War concept of the treaty. I think, and I 
hate to end on a comment like this, but I truly think if 
someone were to come up with the concept of an ABM treaty today 
and bring it to the U.S. Senate, they would have to take that 
individual off to St. Elizabeth's. It's simply not part of 
today's strategic culture, and shouldn't be part of the 
strategic culture. It's simply not healthy. It's not healthy 
for us and for the Russians.
    Let's find the means by which we can accommodate their 
concerns and yet achieve the imperative that we have for the 
deployment of strategic defenses.
    Senator Cochran. I think that is a good note on which to 
conclude our hearing today, and observe that our witnesses have 
been very helpful to us in reaching an understanding of some of 
the problems that we have in deploying a national missile 
defense system and remaining in compliance with the Anti-
Ballistic Missile Treaty.
    It's obvious to me that there are clear obstacles that the 
treaty poses to the deployment of any national missile defense 
system regardless of its architecture. For one that's 
sophisticated enough to give us the kind of defense we need, or 
that will evolve, there are obvious conflicts between the 
treaty's terms and the deployment of a national missile 
defense.
    It also follows that this is an urgent matter. While it 
would be nice to wait until the next election or wait until 
things settle down in Russia in terms of their politics and 
who's in charge of what, I think it's dangerous for us to wait 
any longer. I think we need to get busy and reach out to the 
Russians at the highest levels of our government and start 
talking about these issues and do it in a very serious-minded 
way.
    I don't know anything that's a bigger threat or a greater 
danger to our security or the safety of our citizens than, as 
Mr. Rhinelander so clearly described it, the condition of the 
strategic weapons systems in Russia today.
    So taken all together, the facts form a very serious 
challenge for the United States and our policymakers. Those who 
advocate that we should remain a party to the treaty, no matter 
what, have to now understand that the treaty has to be changed 
significantly and rapidly if we're going to continue adhering 
to it while developing and then deploying a national missile 
defense system.
    We appreciate all of the witnesses who've testified, Dr. 
Kirkpatrick, Mr. Rhinelander, Ambassador Joseph, and the 
Members of our Subcommittee who have attended and participated 
in the hearing. I think it's been a very important undertaking.
    The Subcommittee is adjourned.
    [Whereupon, at 5:18 p.m., the Subcommittee was adjourned, 
to reconvene at the call of the Chair.]
      
                            A P P E N D I X

                              ----------                              


[GRAPHIC] [TIFF OMITTED] T9589.001

[GRAPHIC] [TIFF OMITTED] T9589.002

[GRAPHIC] [TIFF OMITTED] T9589.003

[GRAPHIC] [TIFF OMITTED] T9589.004

[GRAPHIC] [TIFF OMITTED] T9589.005

[GRAPHIC] [TIFF OMITTED] T9589.006

[GRAPHIC] [TIFF OMITTED] T9589.007

[GRAPHIC] [TIFF OMITTED] T9589.008

[GRAPHIC] [TIFF OMITTED] T9589.009

[GRAPHIC] [TIFF OMITTED] T9589.010

[GRAPHIC] [TIFF OMITTED] T9589.011

[GRAPHIC] [TIFF OMITTED] T9589.012

[GRAPHIC] [TIFF OMITTED] T9589.013

[GRAPHIC] [TIFF OMITTED] T9589.014

[GRAPHIC] [TIFF OMITTED] T9589.015

[GRAPHIC] [TIFF OMITTED] T9589.016

[GRAPHIC] [TIFF OMITTED] T9589.017

[GRAPHIC] [TIFF OMITTED] T9589.018

[GRAPHIC] [TIFF OMITTED] T9589.019

[GRAPHIC] [TIFF OMITTED] T9589.020

[GRAPHIC] [TIFF OMITTED] T9589.021

[GRAPHIC] [TIFF OMITTED] T9589.022

[GRAPHIC] [TIFF OMITTED] T9589.023

[GRAPHIC] [TIFF OMITTED] T9589.024

[GRAPHIC] [TIFF OMITTED] T9589.025

[GRAPHIC] [TIFF OMITTED] T9589.026

[GRAPHIC] [TIFF OMITTED] T9589.027

[GRAPHIC] [TIFF OMITTED] T9589.028

[GRAPHIC] [TIFF OMITTED] T9589.029

[GRAPHIC] [TIFF OMITTED] T9589.030

[GRAPHIC] [TIFF OMITTED] T9589.031

                                  <all>

</pre></body></html>
